No. _ _ __

~,1J,,

japmn ~mt If iflt ~ jtJtrs,
SUSAN LEVY,
Applicant,
V.
BASF METALS LIMITED, BASF
CORPORATION, GOLDMAN SACHS INTERNATIONAL,
GOLDMAN SACHS GROUP, INC. GOLDMAN SACHS & CO.,
GOLDMAN SACHS EXECUTION & CLEARING, L.P., ICBC
STANDARD BANK, PLC, UBS AG, UBS SECURITIES LLC, HSBC
BANK USA, N.A., LONDON PLATINUM AND PALLADIUM
FIXING COMPANY LIMITED.

Respondents.
APPLICATION FOR EXTENSION OF TIME TO
FILE PETITION FOR WRIT OF CERTIORARI
To the Honorable Ruth Bader Ginsberg
Associate Justice of the United States Supreme Court and Circuit
Justice for the Second Circuit.
Susan J. Levy, Esq.
40 East 1Oth Street
Suite 2K
New York, New York 10003
Phone:212-962-1782
Email: susanjleyy@aol.com
Attorney For Applicant
Susan J. Levy

To the Honorable Ruth Bader Ginsberg, Associate Justice of the
United States Supreme Court and the Circuit Justice for the Second
Circuit.
Applicant-Plaintiff, Susan J. Levy, Esq. admitted to practice in this Court,
respectfully requests an extension of time to file a petition for writ of certiorari to this Honorable
Court. Sup. Ct. R. 13.5. The earliest deadline for Applicant, Ms. Levy, to file her Petition is,
Monday, July 22,2019 which is ninety-days 1 from April22, 2019, the date when the Second
Circuit Court of Appeals issued an Order declining to reconsider Ms. Levy's petition for a panel
rehearing or rehearing en bane. See Order, dated April22, 2019 annexed hereto as Applicant's
Exhibit A. The Order dated April 22, 2019 considered two separate Decisions and Orders, both
filed separately on February 28, 2019, including a published decision entitled Levy v. BASF

Metals Limited, Et. AI., 917 F.3d 106 (2d Cir. 2019) annexed hereto as Exhibit Bas well as a
Summary Order not published by West's Federal Reporter. The Summary Order was entered on
the Electronic Docket Sheet on February 28, 2019 as Document # 148 and is annexed hereto as
Exhibit C. 2 These Decisions and Orders are the two Second Circuit decisions and orders dated
February 28, 2019 from which Ms. Levy is seeking a writ of certiorari.
For good cause set forth herein, Applicant, Ms. Levy, respectfully requests that
this deadline be extended by sixty days so that the new deadline would be Friday, September 20,
2019.

1

Pursuant to Supreme Court Rule 30.1, one day was added to this calculation to move the
due date from Sunday, July 21, 2019, to the "next day that is not a Saturday, Sunday, federal
legal holiday, or day on which the Court building is closed." namely, Monday, July 22, 2019.
2

The Summary Order was published as 755 Fed Appx. 29 (February 28, 2018) which is
incorrect and hopefully will be changed at some point and corrected because this Summary Order
was definately issued on February 28, 2019 not 2018.
-1-

BACKGROUND
This matter entitled, Levy v. BASF Metals Limited, 917 F.3d 106 (2d Cir. 20 19)
should not be considered in a vacuum as just Ms. Levy's solitary case, because so many others
similarly-situated to her are being effected by these misguided holdings dismissing her case at the
pleading stage when nearly identical allegations by the Companion Class Action were apparently
credited allowing 2008 members of the Class Action to proceed.
The facts of the underlying case are that Ms. Levy, a practicing attorney, at the
time for eighteen years back in 2008, and a 1990 graduate ofNew York University School of
Law and Duke University undergraduate, decided to take the advice of a trusted-advisor at the
time who happened to be her boyfriend and a Harvard and Princeton graduate. She decided to
invest her savings which she wanted for her law practice and retirement to make what she
thought were valid investments in NYMEX Platinum Futures Contracts back in 2008.
Platinum and its sister metal Palladium are part of the Platinum Group Metals
which have industrial and commercial uses such as Jewelry manufacturing or for Catalytic
Converters which help to filter pollution emissions in automobiles upon information and belief
and for Dental Implants as well. However, Platinum, unlike its sister metal Palladium, is also
considered a precious metal like Gold; and Platinum, unlike Palladium, but like Gold, also acts
like a currency, upon information and belief. So, there was a substantial market for both
physical (spot) and NYMEX Platinum back in 2008 upon information and belief.

In this case, Platinum and Palladium traded over New York Mercantile Exchange
as well as was sold in the Physical (Spot) Markets over in London and Zurich. These 2008
NYMEX Futures Contracts were liquidated at severe losses to Ms. Levy, and she fits within the

-2-

Class of Investors defmed under the Class Action entitled In re Platinum & Palladium Antitrust

Litigation, 14-cv-9391-GHW (S.D.N.Y. 3128120l7)("Platinum & Palladium II)
Following her losses, two Class Actions were commenced on her behalf, and she
was defined in both Class Actions as a member of the Class, since the 2008 NYMEX Platinum
Futures Contract Holders were defined as Class Members. In the first Class Action entitled In Re

Platinum & Palladium Commodities Litigation, 10-cv-03617 (S.D.N.Y 2010), ("Platinum &
Palladium 1), Ms. Levy ended-up opting-out and entered into a confidential settlement. But as
everyone knows the definition of a good settlement is that nobody is happy. She realized that
the Plan of Allocation in Platinum & Palladium I did not afford the recovery she wanted, so she
felt fortunate to be able to opt-out. She learned quickly that Class Counsel have many subclasses
to juggle such as in her case the short-sellers ofNYMEX Platinum opposed to the long-buyers
and others as well. She learned that just because one is a member of a certified class does not
necessarily equate with a substantial recovery or decent recovery. She was surprised to learn
about Class counsel's fees, Defendants' right of reversion for any unclaimed or undistributed
proceeds; and realized if she wanted justice to be served for herself, and not get lost in the
shuflle, she needed to exercise her rights as an opt-out and proceed solo. However, her decision
not to follow the Pack is now coming full circle to haunt her, because now in the case of Levy v.

BASF METALS, 917 F .3d 106 (2d Cir. 20 19) at issue herein, she has been dismissed at the
Pleading Stage based on the Statute of Limitations Defense; whereas the companion Class
Action, entitled In re Platinum & Palladium Antitrust Litigation 14-cv-9391-GHW (S.D.N.Y.

3/28/2017)("Platinum & Palladium II) is currently pending without any objections based on the
Statute of Limitations Defense to the Class. Ms. Levy under this posture appears to still be a
Class member, since the 2008 NYMEX holders are defined in the Class Complaint as Class

-3-

members upon information and belief. One wonders why did not defense counsel use the
negative decision against Ms. Levy and argue the statute of limitations defense against the
similarly-situated Class when they moved to dismiss Class Counsel's Third Amended
Complaint?
In fact, Ms. Levy Pleadings were nearly identical to the Class's with respect to
Equitable tolling based on fraudulent concealment, and the Class of which she is still a member
is moving forward and she is being left behind and has been dismissed. The tolling provisions
such as Equitable Tolling based on Fraudulent Concealment as well as the Discovery Accrual
Rule have not been applied to her. But worse, these age-old doctrines are being severely
misapplied to Opt-out Plaintiffs such as Ms. Levy and others that she knows about. This
asymmetry needs to be addressed, and this opportunity for review by the highest Court in the
Land is desperately needed not only for Ms. Levy to finally be able to sleep at night, but to
hopefully reinstate these learned doctrines which appear to be close to evisceration as
demonstrated in her case and others of which she is keenly aware. Because there were
absolutely no statutes of repose in her case or in the case of the Class Action, she believes this
case is ripe for Final Appellate Review.
The losses she sustained in her investments in NYMEX Future Platinum Contracts
in the year 2008 were like so many other investors who also invested in instruments such as

LIBOR, FOREX, GOLD, SILVER, ALUMINUM , THE ISDA FIX, and so many other instruments
that were allegedly manipulated during this time-frame. Judge Woods' Class Action decision
entered on March 28, 2017 describes the horrendous allegations that she believes were happening
to her in 2008 and which she believes caused her to lose her savings.

Unless one has walked in

her shoes, it is very hard to imagine the gravity of the situation and the humiliation of being

-4-

subject to a world-wide financial manipulation which should have and could have resulted in jail
time to some perpetrators since the claims are also defined as Felonies.
Although this Esteemed and Venerable Court admittedly must decide extremely
urgent matters of life and death that go to the heart of our Democracy, and are admittedly much
more important than Ms. Levy's solitary case; nevertheless, it should not be gainsaid that her
allegations of price-fixing and market manipulation which she equates with theft of funds
including her life-savings, is vitally important to a fair society; and she believes her case is still a
matter of great importance where a hard-working, law-abiding, tax-paying citizen was treated in
such a unseemly manner. Since we are still living in a society based on Economic Freedoms, it
appears that this case would be ripe for further Appellate Review, and Ms. Levy would like to
submit a petition for a writ of certiorari hopefully to correct what she believes has been so far a
miscarriage of justice relevant to her and many others.
Now, the lower courts unapologetically have thrown-out Ms. Levy's case by
telling her she is out-of-time. But, she respectfully begs to differ under the totality of the
circumstances and would like to press her case under the posture of being an opt-out plaintiff.
How can the important policy of repose be promoted by dismissing her solitary case, when the
other 2008 Class members of which she is a part are allowed to proceed as part of a Companion
Class Action? Especially here, where her pleadings were nearly identical to the Class regarding
the Statute of Limitations, Equitable Tolling and the Discovery Rule? Did not the lower courts
have to credit Ms. Levy's good faith allegations that she was within the Statute of Limitations,
under the posture of a Motion to Dismiss where all facts are supposed to be construed in favor of
the non-movant and absent any Merits Discovery? Have the Standards for a motion to dismiss
been changed? If so, this Appeal will at least clarify a split in many circuits that treat the

-5-

timeliness of financial loss cases in such divergent manners and establish one national standard
of conduct upon which litigants, especially Opt-out Plaintiffs, can rely upon in deciding whether
or not to proceed to court which is quite costly. Therefore, settling this issue will allow potential
opt-outs to avoid costly litigation from the very start and just stay with the Class, notwithstanding
their right to opt-out under Federal Rule of Civil Procedure 23; and perhaps this case will cause
Congress to take further action so that nobody else falls through the cracks as Ms. Levy feels has
happened to her despite her diligent efforts.
Therefore, despite the mountain of alleged evidence that Ms. Levy believes exists
that her accounts were effected by criminal market-manipulation, her case at issue here was
summarily dismissed based on the Statute of Limitations defense. She believes she has a right to
be here, and now she feels that she has to be here to reverse the strong impact that this decision
will have under Stare Decisis.

OPINIONS BELOW
On April22, 2019, The Second Circuit Court of Appeals unanimously declined to
reconsider Ms. Levy's appeal both by the Panel and En Bane. The Second Circuit Court of
Appeals issued two separate Orders and Decisions in response to Ms. Levy's appeal, both on
February 28, 2019. See Exhibits, B,C, annexed hereto. The Second Circuit issued a published
opinion to address only the applicability of the Discovery Accrual Rule to Commodity Exchange
Act Claims such as Ms. Levy's. This decision was published as Levy v BASF Metal Limited, 917
F.3d 106 (2d Cir. 2019), and is annexed hereto as part of Exhibit B. Also, on February 28, 2019,
the Second Circuit issued what appears to be a Summary Order also annexed hereto as Exhibit C.
The Order denying Reconsideration dated April 22, 2019 is annexed hereto as Exhibit A. The
two Second Circuit Decisions each dated February 28,2019 are annexed hereto as Exhibit B,

-6-

and C respectively.
JURISDICTION
This Court has jurisdiction under 28 U.S.C.ยง 1254(1).
REASONS AN EXTENSION IF JUSTIFIED
Supreme Court Rule 13.5 provides in relevant part that "An application to extend
the time to file shall set out the basis for jurisdiction in this Court, identify the judgment sought
to be reviewed, include a copy of the opinion and any order respecting rehearing, and set out
specific reasons why an extension oftime is justified." Sup. Ct. R. 13.5. The specific reasons
why an extension of time is justified are as follows:
1. I work in a small office with one other attorney. We are extremely busy
working together on many client matters, and during the past few months have been
overwhelmed. For example, on June 7, 2019, I finally filed on behalf of my clients, defendants,
a motion for summary judgment in New York State Court before Justice Lucy Billings with over
90 docket entries including Five affidavits/affirmations and Exhibits and Memorandum of law. I
had to get two extensions of time to file this Summary Judgment Motion; and now a Reply is due
on August 23, 2019 as well.
2. I also have another case pending in the Southern District ofNew York, and had
papers due on June 21, 2019 relating to a pending Motion and Cross-Motion. Judge Broderick
also ordered an extension of time in response to my letter-motion. I try to really help my clients
in an ethical fashion, and I sometimes take on very hard cases and simply need more time to
complete my tasks under my fiduciary obligations requiring a duty of care to my clients. I have
done so in this case at my own expense because now I need more time to attend to my own case.
Because of the gravity involved, I do need to take enough time to present the strongest argument

-7-

possible.
3. In another case pending in a New York State Court, I have three Court ordered
Depositions that I must conduct that are scheduled for August, 20 19.
4. One reason I got so delayed and set back was on or about April29, 2019, I
learned of the passing of a family member (my cousin, Mrs. Rosenberg) due to Multiple
Myeloma. I felt blind-sided by the news because I thought the situation was that of remission,
and I was not expecting such news. So I took a few days off. When I returned I seemed to have
difficulty concentrating for at least two weeks to one month, and was therefore not working at
the efficient rate at which I normally work that entails extremely long hours. For a few weeks I
was spinning my wheels so to speak, but now I have been able to get back on track.
Unfortuntately, I could not address this Petition for a Writ of Certiorari until this week and
realized it is just not enough time to do the rightjob when the Petition is due on July 22,2019.
5. I also had numerous doctors appointments and dental appointments that
needed to be scheduled that were either cancelled or never scheduled in the first place due to
these deadlines in June, 2019 and many other deadlines not mentioned herein. I am extremely
overdue for seeing some doctors including most importantly my opthomalogist/Optometrist for a
serious eye condition that needs to be closely monitored called Macular Hole (not macular
degeneration) which effects my sight, but fortunately right now all is stable, and I have learned to
adapt except for racquet sports where my game is worse than what it used to be; Mammography;
Dermatologist, general doctor, and dental work which I have been putting off for much too long a
time period. I would like to see my doctors this summer because that is supposedly my slow
season, but not this year. I am now extremely over due and would like to take some time to
address these important concerns which I have neglected to do due to my work load,

-8-

6. In sum, the heavy demands of my occupation and work load and death of my
dear Cousin caused great delay in my schedule. I need to take time to put together an excellent
Petition, the best I have ever done in my entire career, that will hopefully convince this
Honorable Court to take-up this Case. As such, Applicant seeks a sixty-day extension to cope
with these demands.
7. The requested extension also is necessary to accommodate pressing deadlines
in Applicant's other matters.
8. Because there appears to be no prejudice to any of the parties nor irreparable
harm by the sixty-day delay; Applicant requests this time in the interests of justice so that she
can be heard.
CONCLUSION
For the foregoing reasons and good cause shown, Applicant respectfully requests
that this Court grant this application for an extension of time to file a petition for writ of
certiorari.
July 3, 2019
Respectfully

Submitted~

~~-~

Susan J. Levy, Esq.
Attorney For Applicant
40 East 1oth Street
Suit 2K
New York, New York 10003
(212) 962-1782 (TEL)
(212) 962-3711 (FAX)

-9-

